            Apr. 8. 2009 4: 16AM                                                         /10. '3422   P. 2


                            '   ..   NATJONA'LRAILROAD PASSENGeR CC.)RPOI~ATioN
        .
        "
    (                                          (lFFIC E' OF iHr:: INSPECTOR GENERAL
                                                    OFFleF-OF INVESTIGATIONS
                  I i·',:" .. "
                                                     INVIllSTIGATIVE REPORT
                                       "   '




                      1'ITI.E: Mismanagement

                      CASE NUMBER: 00-113

                      DATE OF RE:PORT: April?, 2009

                      REPORT PREPARED BY:

                      Report of Interview: _ _ _ __
                      Report of Documents: -c-- - - -- --
                      Other Activity (Describe):          X - Cloisina Report


                   Management responded In a timely fashion to Ol's referral of March 3, 2009, and
                   acted affirmatively on <111 the recommend<1tions referenced in said referral.
                   According to said            a total of $4900 i       I      from the owners of
                   Private Cars                             and                        Additionally,
(                  rmmagement                         Car accounts, and as a resu of said audit
                   corrected billing worksheets were completed and sent to fhe Amtrak Finance
                   Department In Chicago for collection.                                 '

                  Additionally, management also provided 01 with copies of Amtral< _ _
                  _          8 fee waiveI' correspondence dated March 19, 2009, fo/' private car
                  activities at WAS Union Station's Anniversary Celebration.      's waiver was
                  required to comply with Amtrak priVate car regulations.

                  Having affirmatively acted on all of 01 'recommendations outlined in said ref~mallt
                  Is recommended that this case be closed.




                  Deputy Inspector General/Counsel's Signature             ( '~#~           ./l. h,
                                                                     --::::-'-~=->""-\,o----I~1Yj


                  00-113
